TN

C@OCKLE

E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

MICHAEL WIGGINTON, JR.,
Petitioner,
v.

THE UNIVERSITY OF MISSISSIPPI, CHANCELLOR.
DANIEL W. JONES, PROVOST MORRIS H. STOCKS,
DEAN JOHN Z. KISS, DEAN VELMER BURTON,
and CHAIR ERIC LAMBERT,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8807 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of November, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

ncaa] Konse Dosa Ondineb hile

My Comm. Exp. September 5, 2023
Notary Public Affiant

 

39995
